jg.003 8

kJ

IN THE
SUPREME COURT OF THE UNITED STATES
F areed- Sepehry-Fard
v.

PETITIONER. _

k^

lU;j ITivtfili liVUriii"

SUPREME COURT OF CALIFORNIA,—-RESPONDENT(S)
ON PETITION FOR WRIT OF CERTIORARI TO

Supreme Court of California, Case No. S265157
After an Unpublished Decision by the Court of Appeal
PETITION FOR WRIT OF CERTIORARI
Fareed-Sepehry-Fard, Sui Juris
C/o 12309 Saratoga Creek Dr.
Saratoga, the State of California, Santa Clara County
(Zip code Exempt DMM 602 sec 1.3(e))
Phone Number (408) 690-4612
Email: Ahuraenergysolarcells@msn

FILED
DEC 1 6 2020
supreEm°FcTourtLm

SK

Notice to Agent is Notice to Principal and Notice to Principal is
Notice to Agent.
QUESTION PRESENTED
Courts across this Republic have systematically become
vehicles for pedophiles, MS 13, sex, human traffickers and drug
cartels to launder monies using variety of ruses, inter alia, using
security instruments created from each and every court cases
through the CUSIP1, when the alleged claimants have got
nothing to do with the alleged financial transactions that never
ever happened or happens in spite of their false representations to
the contrary that they do.

The Committee on Uniform Securities Identification
Procedures "CUSIP". Every case whether criminal or civil or
even probate, is assigned a CUSIP number and traded on wall
street among various deep state operatives who launder monies
obtained from various unlawful activities including but not
limited to kidnapping over 800,000 children on an annual basis
in this Republic alone, selling their organs and committing all
kinds of other heinous crimes on those children using various
other conduits and ruses inter alia : Credit Default Swaps
(CDSs), Collateralized Debt Obligation (CDOs), Yield Spread
Premiums, and other ruses such as but not limited to obtaining
federal and state grants which are obtained and distributed
among members of these racketeering clubs.
-1 -

All cases, whether civil or criminal, et.al. are assigned
Committee on Uniform Securities Identification Procedures
("CUSIP") numbers and traded on wall street as securities.
Petitioner served Respondents Mister Sunil R. Kulkami
("Kulkami") and Miss Mary E. Arand ("Arand") with two
subpoenas for their furnishing the sources of the monies used to
monetize two cases in Superior Court of California, County of
Santa Clara-Case Numbers 17cv314286 and 17CH007672
through the CUSIP.
The monies obtained by Superior Court in monetizing
Case Number 17cv314286 and Case Number 17CH007672
which is the nexus to Case Number 17cv314286, managed by
Mister Kulkami and Miss Arand, seem to be from inter alia, sex
and human trafficking, pedophilia, drug cartel money laundering
without attorneys having any power of attorney from the alleged
Plaintiff in Case Number 17cv314286 which is the nexus to Case
Number 17CH007672.
The subpoena'd documents and tangibles are material to
both cases, relate to a determination of jurisdiction of Sunil
Kulkami and Mary Arand and their Co Parties.
-2-

There are on going investigation of these individuals'
repeated misconduct who are helping laundering monies for
pedophiles when there is no Power of Attorney to attorneys
claiming falsely they are representing the alleged Plaintiff in
Case Number 17cv314286 and no relationship between
Petitioner and any and all of the alleged claimants on Petitioner's
land in Case Number 17cv314286 which is the nexus to Case
No. 17CH007672.
This Petition directs this court of records to order the
Respondents Kulkami and Arand to show cause why Arand and
Kulkami are not in contempt of the writs for not returning the
writs and why Petitioner is not entitled to tort claims to purge
Kulkami and Arand's contempt?
The two writs ordered Kulkami in Case Number
17cv314286 and Arand in Case number 17CH007672 to furnish:
1) the Committee on Uniform Securities Identification
Procedures "CUSIP" Number; 2) All the amounts of
monetization received and or to be received; 3) Sources of any
and all monies received and traded on wall street within thirty
-3 -

(30) days from the receipt of the Subpoena or by 5 p.m. on
September 11th, 2020 whichever happens first.
The issue presented is whether or not this court must order
all Respondents to appear and show cause why Respondents are
not in contempt of the writs for not returning the writs and why
Petitioner is not entitled to tort claims to purge Respondents'
contempt of the writs or in the alternative, this court should
continue to aid and abet laundering monies for pedophiles,
MS 13, drug cartels, sex and human traffickers based on
ignorance, on purpose or both?

LIST OF PARTIES
All parties appear in the caption page of the case on the
cover page.

-4-

TABLE OF CONTENTS
QUESTION PRESENTED

1

LIST OF PARTIES

4

OPINIONS BELOW

5

JURISDICTION

5

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

6

STATEMENT OF THE CASE

7

A. What the Petition Asked the California Supreme Court
and the California Sixth Appellate District to Do?...........

8

B.

Trial Court Proceedings

9

C.

The Court of Appeal Affirms

10

D.

The California Supreme Court Affirms

10
14

ARGUMENT
A.

The Writ Clearly Noticed Respondents-Should They
Fail to Return the Writ, There May Be Consequences.

14

REASONS FOR GRANTING PETITION

33

CONCLUSION

36

-l-

INDEX TO PETITIONER’S TRANSCRIPT

FILED
/DATE

PAGE VOL.

11/18/2020
1 California Supreme Court Docket (Register of Actions)
2 California Supreme Court Rejection of Petition for a Writ 11/17/2020

3

1

4

1

10/21/2020

8

1

of prohibition or mandate for Respondents' to Appear and
show cause why Respondents are not in contempt of the
writs for not returning the writs and why Petitioner is not
entailed to tort claims to purge Respondents'contempt for
not retunring the writs as required under the law

3 Verified Petition for a writ of mandate or prohibition for
an order to show cause why Mary E. Arand and Sunil
Kulkarni are not in contempt of the writs for not returning
the writs and why Petitioner is not entitled to tort claims
to purge Kulkarni's and Arand's contempt of the writs;
Memorandum of Law; Declaration

91

1

10/16/2020

186

10/16/2020

187

1
1

4 Verified response to the Clerk's letter date October 21-2020 10/21/2020
re: the so called "vexatious litigant order" Memorandum of
Law; Declaration

5

6th DCA Docket (Register of Actions)
6 6th DCA Rejection of Verified Petition for a Writ of
prohibition or mandate for an order to show cause why
Mary E. Arand and Sunil Kulkarni are not in contempt of
the writs for not returning the writs and Petitioner is not
entitled to tort claims to purge Kulkarni's and Arand's
contempt of the writs, Memorandum of law, Declaration

TABLE OF AUTHORITIES
CASES

PAGE NUMBER

California Cases

People v. Taylor, 57 Cal. 620; Payne v. San Francisco, 3 Cal.
122 People v. Brite, 55 Cal. 79; [***4] Hull v. Superior Court,
63 Cal. 174; People v. Hartwell, 67 Cal. 11, [6 Pac. 873],
See, also, Ball v. Kenfield, 55 Cal. 320, and People v. Perry,
79 Cal. 105, [21 Pac. 423].), sqq Lorbeer v. Hutchinson, 111
Cal. 272, [43 Pac. 896], it is said: 'The failure to qualifyif he did so fail-ipso facto created a vacancy. (People v.
Shorb, 100 Cal. 537, [38 Am. St. Rep. 310, 35 Pac. 163].').......

11

Sepehry-Fard v. Aurora Bank CA6 (2016)

Passim

Yvanova v. New Century Mortgage Corp.,
226 CaTAppA* 495 (2014)......................

Passim

Tenderloin Housing Clinic vs. Sparks (1992) 8 Cal. App.4th 29

Passim

Abandonato v. Coldren (1995) 41 Cal.App.4th 264.

Passim

Federal Cases
U.S. v. Tweel, 550 F. 2d.297

Passim

Taylor v. United States, 113 Fed. Cl. 171, 173 (2013)

Passim

Bulloch v. United States, 763 F.2d 1115 (1985).........

Passim

Rodriques v. Ray Donovan (U.S. Department of Labor)
769 F. 2d 1344, 1348 (1985).........................................

Passim

Media Technologies Licensing, LLC v. Upper
Deck Co., 334 F.3d 1366,1370 (Fed. Cir. 2003) (Cal)

Passim

Sosa v. Fite, 498 F. 2d 114, 116, 117 (5th Cir. 1974)

Passim

-IV-

Supreme Court Cases
Aetna Insurance Company vs. Hallock (1868) 73 U.S. 556,
SUPREME COURT OF THE UNITED STATES..............

13

Henry Schein, Inc. v. Archer & White Sales, Inc.
17-1272, January 8, 2019..................................

Passim

Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971)

Passim

Tick Wo v. Hopkins, 118 U.S. 356

Passim

Davis v. Passman, 442 U.S. 228 (1979)

Passim

Butz v. Economou, 438 U. S. 478

Passim

Rent-A-Center, West, Inc. v. Jackson, 561 U. S. 63, 67...

Passim

Compton v. State ofAlabama, 214 U.S. 175 (1909).......

.Passim

AT&T Technologies, Inc. v. Communications Workers,
475 U. S. 643, 649-650...............................................

Passim

STATUES AND RULES
18 US Code Section 1346-- Honest Services Fraud

14

California Rules of Court
Passim

Rule 8.25 (b) (3)
Statues and Other Authorities
Title 9, US Code

Passim

Cal. Const., art. VI, §10.

Passim

Civil Code of the State of California section 3516

Passim

Fed. R. Civ. P. Rule 12 (h) (3)........................................
Sims v. Ahrens, 271 S.W. 720 (Ark. 1925)......................

.Passim
Passim

Kansas P. R. Co. v. Dunmeyer Supreme Court of Kansas
-v-

14

Article 1 section 10 of the Constitution

Passim
6

Article III
18 US Code Sections 241 and 242;
42 US Code Sections 1983 and 1985

Passim

18U.S. Code §2382

Passim

18 USC § 1512 et seq

Passim

Article IV Section 4

Passim

18 USC §2385

Passim

Title 28 US Code §454

Passim

Declaration of Independence...........................................

Passim

Bureau of Land Management, Public Information Office.

Passim

Land Patent.

Passim

Treaty of Guadalupe Hidalgo
between the United States and the Republic of Mexico

Passim

Vancouver (City) v. Ward, 2010 SCC 27.....................

Passim

Fed Rule. 201 (e) and FRAP 34

Passim

Civil Code of the State of California section 3516

Passim

Title 28 US Code Section 1653 ..........
28 U.S.C § 1257(a) and 5th amendment.

Passim
6

4th, 5th, 6th, 7th, 14th amendment.

7

Section 996 of the Political Code

11

Stats. 1850, ch. 21

12

Code of Civil Procedure 14, Government Code 68076

13

-vi-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below issued by the California Supreme
Court.
OPINIONS BELOW
The Decision of the highest California Court, California
Supreme Court's refusing to issue an order to show cause
why Respondents should not be found to be in contempt of
the writs for not returning the writs and why Petitioner is
not entitled to tort claims to purge Respondents' contempt
of the writs appears at [2 PT 4]2 and is unpublished.
The Decision of the California Sixth Appellate District,
refusing to issue an order to show cause why Respondents
should not be found to be in contempt of the writs for not
returning the writs and why Petitioner is not entitled to tort
claims to purge Respondents' contempt of the writs
appears at [1 PT 187] and is unpublished.
JURISDICTION
The date on which die California Supreme Court decided
Petitioner's case was on November 17, 2020. A copy of
that decision appears at [1 PT 4],

2 PT stands for Petitioner's Transcripts concurrently filed, [1 PT
49-54] means volume 1 of Petitioner's Transcripts pages 49 to
54 inclusive, etc. etc
-5-

The jurisdiction of this court is invoked under 28 U.S.C
§ 1257(a) and 5th amendment right to due process.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Petitioner was unable to obtain an impartial
arbitrator and an impartial forum, without bias, pursuant to the
4th, 5th, 6th, 7th, and 14th Amendment guaranteed rights of the
federal Constitution of 1787, as purviewed by the states for
Complainant, Petitioner and Appellant Fareed -Sepehry-Fard.
Petitioner has been wronged by the void orders of
California Supreme Court in refusing to avail due process to
Petitioner, and as an American who has been wronged, is due
remedy.
The lower court order is void on its face, in fact and in law
due to inter alia, that there is no court in our entire Republic,
except this court of records, that has article III judicial power
since none other has been ordained and established at Article III
Section I of the Constitution of our Republic. The inferior court
administrators refused to perform their administrative duties in
availing due process to Petitioner.
-6-

STATEMENT OF THE CASE
Petitioner Fareed- S epehry-Fard°, Sui Juris, (or
"Petitioner") filed for a writ of mandate or prohibition directing
Mister Kulkami and Miss Arand to appear and show cause why
they should not be found in contempt of the two writs they
received and why Petitioner is not entitled to tort claims to purge
Kulkami's and Arand's contempt of the writs for not returning
the writs, Id., [1 PCT 8-90],
The Sixth District Court of Appeal denied the Petition, [1
PCT 187], Court of Appeal No: H048455, on or about October,
16th, 2020.
Since Petitioner did not obtain his due process, Petitioner,
as an American who has been wronged, asked the California
Supreme Court to furnish him with long overdue remedy.
California Supreme Court also refused to furnish long overdue
relief to Petitioners at [1 PT 4]]. Subsequently, this Petition for
writ of mandate, Id., followed.
This summary of facts is based on sworn statements of
Petitioner made in the Petition, Id.

-7-

A.

What the Petition Asked the California Supreme
Court and the California Sixth Appellate District
to Do?

Petitioner asked the California Supreme Court and the
California Sixth Appellate District through a writ of Prohibition
or mandate to order Respondents Mister Sunil Kulkami and Miss
Mary E. Arand ("Respondents”) to appear and show cause why
Respondents are not in contempt of the writ that they received
but did not return and why Petitioner is not entitled to tort claims
to purge Respondents Kulkami's and Arand's contempt of the
writs they received but did not return, [1 PT 8-90],
Petitioner explained to inferior courts that as a direct and
proximate results of Respondents failing to return the writs,
Petitioner has been significantly economically damaged and is
entitled to economic damages to purge Respondents' contempt of
the writs by not returning the writs, Id.
The writ noticed Respondent Sunil Kulkami at [1 PT 47]
that "DISOBEDIENCE OF THIS SUBPOENA MAYBE
PUNISHED AS CONTEMPT BY THIS COURT. YOU WILL
ALSO BE LIABLE FOR THE SUM OF FIVE HUNDRED
DOLLARS AND ALL DAMAGES RESULTING FROM YOUR
-8-

FAILURE TO OBEY", [1 PT 47], In spite of this clear notice to
Respondent Sunil Kulkami, Kulkami still refused to obey the
writ and must show cause why Petitioner is not entitled to tort
claim to purge Respondent's Kulkami's contempt of the writ by
not returning the writ.
Additionally, another writ also noticed Respondent Mary
E. Arand at [1 PT 69] that "DISOBEDIENCE OF THIS
SUBPOENA MAYBE PUNISHED AS CONTEMPT BY THIS
COURT YOU WILL ALSO BE LIABLE FOR THE SUM OF
FIVE HUNDRED DOLLARS AND ALL DAMAGES
RESULTING FROM YOUR FAILURE TO OBEY", [1 PT 69], In
spite of this clear notice to Respondent Mary E. Arand, Arand
still refused to obey the writ and must show cause why Petitioner
is not entitled to tort claim to purge Respondent's Arand's
contempt of the writ for not returning the writ.
B.

Trial Court Proceedings

Based on Petitioner's railroaded on every turn by both
Respondents Arand and Kulkami in Trial court, Petitioner filed
his claim on September 21, 2020, (1 PT 189.) to the Sixth DCA.

-9-

C.

The Court of Appeal Affirms.

Petitioner filed his claim on September 21, 2020, (1 PT
189.) to the Sixth DCA.
On October 16,2020, the Sixth DCA denied that Petition.
D.

The California Supreme Court Affirms.

Since there were many erroneous facts and law in the void
decision, Id., and or otherwise substantial material and law
presented to the court, which were, based on ignorance, on
purpose or both, completely overlooked, Petitioner filed the
Petition in California Supreme Court, [1 PT 8],
California Supreme Court asked Petitioner to corroborate
why Petitioner would overcome the [void] so called vexatious
litigant order issued by Miss Mary Arand, [1 PT 187].
Petitioner replied, [1 PT 91] explaining to the California
Supreme Court, that, for a variety of reasons, the so called
vexatious litigant order issued by Arand has been void and of no
force and effect.
For example, Petitioner explained and corroborated that
both Miss Arand and Mister Kulkami had long ago vacated
office by failing to post bond in Santa Clara County Recorder,
-10-

see inter alia, section 996 of the Political Code provides: 'An
office becomes vacant on the happening of either of the following
events before the expiration of the term;. . . Subdivision 9: His
refusal or neglect to file his official oath or bond within the time
prescribed.. .', see The official oath or bond must be filed
within the prescribed time or the right to the office becomes
forfeited. (Citing People v. Taylor, 57 Cal. 620; Payne v. San
Francisco, 3 Cal. 122 People v. Brite, 55 Cal. 79; [***4] Hull v.
Superior Court, 63 Cal. 174; People v. Hartwell, 67 Cal. 11, [6
Pac. 873]. See, also, Ball v. Kenfield, 55 Cal. 320, and People v.
Perry, 79 Cal. 105, [21 Pac. 423].), see Lorbeer v. Hutchinson,
111 Cal. 272, [43 Pac. 896], it is said: The failure to qualify-if
he did so fail--ipso facto created a vacancy. (People v. Shorb,
100 Cal. 537, [38 Am. St. Rep. 310, 35 Pac. 163].')
Also take further notice, if any person, elected or
appointed to any office, shall perform any of the duties thereof
without having executed and filed in the proper office any bond
required of him by law, he shall be deemed guilty of a
misdemeanor, and on conviction thereof shall be fined in a sum
not exceeding one thousand dollars, and his office be declared
- ll -

vacant. Stats. 1850, ch. 21, "An Act concerning the Official
Bonds of Officers.", Feb. 28,1850.; [1 PT 94-95], that Petitioner
never ever consented or consents to a Nisi Prius Court at [1 PT
95-96], that both Kulkami and Arand seems to have hired
mercenaries, armed men with military weapons to take Petitioner
out so that both Arand and Kulkami can continue to aid and abet
laundering monies for dmg cartels, MS 13, pedophiles, sex and
human traffickers using Petitioner's home as a conduit and
another mse for their misconduct, Id., [1 PT 22], [1 PT 24], etc.
Hence the vexatious litigant so called order, Petitioner
explained to California Supreme Court, that the so called
vexatious litigant order, as a direct and proximate results of
controlling case laws, Id., and enacted law, has been void and
was never worth the paper it was printed on, in spite of both
Mister Kulkami and Miss Arand monetizing those and other so
called orders on Wall Street in attempts of laundering monies for
pedophiles, dmg cartels, sex and human traffickers, MS 13 and
others, [1 PT 22], [1 PT 29], that the summons is void as a matter
of enacted law--since it does not have the seal and the wording
pursuant to enacted substantive law at inter alia Code of Civil
-12-

Procedure 14, Government Code 68076 and controlling case
law—Aetna Insurance Company vs. Hallock( 1868) 73 U.S. 556,
SUPREME COURT OF THE UNITED STATES,

ft <(

The statute

recognizes it as such, and requires that it shall issue under the
seal of the court.... It is therefore to all intents andpurposes an
execution, and the statute expressly requires that it must issue
under the seal of the court. Without the seal it is void. We cannot
distinguish itfrom any other writ or process in this particular...
... This is his authority, and if it is for any reason void, his acts
purporting to be done under it are also void... ”, Aetna Insurance
Company vs. Hallock, Id.
In spite of these facts on records, California Supreme
Court, based on what seems to be ignorance, on purpose or both
still denied to avail Petitioner due process and continued to
further harm Petitioner economically.
Petitioner explained to the inferior court of records, "The
words, "by due course of law," are synonymous with "due
process of law," or, "the law of the land;" Emphasis added,
Kansas P. R. Co. v. Dunmeyer Supreme Court of Kansas, if law
of the land is not furnished to Petitioner, and the law of the land
- 13-

has not been furnished to Petitioner, then Petitioner has been
deprived of his 5th amendment right to due process and takings of
property by the Respondent and Respondent's culprits.
ARGUMENT
A.

The Writ Clearly Noticed Respondents—
Should They Fail to Return the Writ,
There May Be Consequences

The writs, addressed to Respondents Kulkami and Arand,
clearly noticed them - should Respondents Arand and Kulkami
refuse to return the Subpoenas, there will be consequences, Id.
For instance, the writ noticed Respondent Sunil Kulkami
at [1 PT 47] that"DISOBEDIENCE OF THIS SUBPOENA MAY
BE PUNISHED AS CONTEMPT BY THIS COURT YOU WILL
ALSO BE LIABLE FOR THE SUM OF FIVE HUNDRED
DOLLARS AND ALL DAMAGES RESULTING FROM YOUR
FAILURE TO OBEY", [1 PT 47], In spite of this clear notice to
Respondent Sunil Kulkami, Kulkami still refused to obey the
writ and must show cause why Petitioner is not entitled to tort
claim to purge Respondent's Kulkami's contempt of the writ by
not returning the writ.

-14-

Additionally, another writ also noticed Respondent Mary
E. Arand at [1 PT 69] that "DISOBEDIENCE OF THIS
SUBPOENA MAYBE PUNISHED AS CONTEMPT BY THIS
COURT. YOU WILL ALSO BE LIABLE FOR THE SUM OF
FIVE HUNDRED DOLLARS AND ALL DAMAGES
RESULTING FROM YOUR FAILURE TO OBEY", [1 PT 69]. In
spite of this clear notice to Respondent Mary E. Arand, Arand
still refused to obey the writ and must show cause why Petitioner
is not entitled to tort claim to purge Respondent's Arand
contempt of the writ for not returning the writ.

REASONS FOR GRANTING PETITION
Imposters who have vacated office and have not been
"judges" for years can not and must not be allowed to endanger
our Republic, our safety and our prosperity.
Respondents do not have a "dispute" provision to rely
upon under the writ. Respondents, and all parties who have
taken an oath were absolutely mandated by law to defend
Petitioner's constitutional rights against all enemies, foreign and
domestic by operation of law.
- 15-

The courts below view Petitioner's writs, endorsed by all
three branches of tbe government, as a cause of action and a
pending claim which, according to the court below, was not in
the jurisdiction to avail remedy to Petitioner as an American who
has been wronged by the Respondent and its Co Parties Agent(s)
Principle(s).
Because Sepehry-Fard v. California Supreme Court et al.,
unpublished opinion as well as other courts of appeal and lower
courts have led to disregard established Federal, State law and
clear unambiguous power of the writ issued by the authority, to
wit: "We the People", Id., that no contempt of the writ for not
returning the writ is allowed, and to ensure uniformity of
decisions across this Republic, this court should grant review in
this case to continue to uphold the power of the writ, Id.
CONCLUSION
For these reasons, the petition for writ of certiorari should
be granted.
DATED: 11th day of December, 2020
Respectfully presented,
All rights reserve waive none
- 16-

DECLARATION
i: a man, Fareed-Sepehry-Fard ("Petitioner"), declare:
1. i: am a man of Republic of California and an American
National, i: have personal first hand knowledge of the
facts set forth in this declaration. If called upon to testify
as a witness re same, i: a man, Fareed-Sepehry-Fard could
and would competently testify to the facts in this
declaration.
2. Everything that i, a man, Fareed-Sepehry-Fard have stated
in " PETITION FOR WRIT OF CERTIORARI" which is
concurrently filed with this Declaration are truth to the
best of my (a man's) knowledge and nothing but the truth.
i: a man, Fareed-Sepehry-Fard declare under the penalty of
perjury under the laws of the United States of America, the
State of California and California Republic that the foregoing
is true and correct.
Executed and DATED: 11th day of December, 2020 in Saratoga,
California.
All Rights Reserve Waive None
Respectfully presented,
All rights reserve waive none

F areed- S epehry-F ard
-18-

